September 28, 2001

GARY L. MCCURDY
VICE PRESIDENT, EASTERN AREA

SUBJECT:	 Audit Report – Cleveland Performance Cluster’s Process for Administering
          Continuation of Pay Leave Benefits (Report Number HC-AR-01-001)

This report presents the results of our audit of the Cleveland Performance Cluster’s
process for administering continuation of pay leave benefits (Project Number
00RA058HC005). The audit was self-initiated and is the fifth in a series of audits
regarding continuation of pay leave benefits in the Allegheny Area.

The audit revealed opportunities for improving the process of administering
these benefits and complying with Postal Service policies. We provided
three recommendations to improve the process. Management agreed with our
recommendations and the actions taken or planned should correct the issues discussed
in this report. Management's comments and our evaluation of these comments are
included in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Chris Nicoloff,
director, Labor Management, at (214) 775-9100 or me at (703) 248-2300.



Ronald K. Stith
Assistant Inspector General
 for Core Operations

Attachment
cc:	 Suzanne F. Medvidovich
     DeWitt O. Harris
     Kathleen Ainsworth
     John Ella Allen
     Wayne L. Eggiman
     MaDonna Butwin
     Ralph W. Naples
     Timothy F. O’Reilly
     John R. Gunnels
Cleveland Performance Cluster’s Process for                       HC-AR-01-001
 Administering Continuation of Pay Leave Benefits


                                   TABLE OF CONTENTS

Executive Summary
                                                     i

Part I


Introduction                                                          1


   Background                                                         1

   Objective, Scope, and Methodology                                  2

   Prior Audit Coverage                                               3


Part II


Audit Results                                                         5


   Administration of Injury Leave Benefits Not Always

     in Compliance with Policies                                      5

   Recommendations                                                    9

   Management's Comments                                              9

   Evaluation of Management's Comments                               10


Appendix A. Statistical Sampling Methodology Overview                11


Appendix B. Injury Leave Claims With Errors                          12


Appendix C. Management's Comments                                    13





                                         Restricted Information
Cleveland Performance Cluster’s Process for                                       HC-AR-01-001
 Administering Continuation of Pay Leave Benefits


                                  EXECUTIVE SUMMARY
Introduction                  We completed a self-initiated audit to determine whether the
                              Allegheny Area’s process for approving and tracking the use
                              of continuation of pay leave benefits for injured employees
                              complied with the Department of Labor and Postal Service
                              policies. This report on the Cleveland Performance Cluster
                              is the fifth report concerning the process for approving and
                              tracking continuation of pay leave benefits in the Allegheny
                              Area.

Results in Brief
             The Cleveland Performance Cluster supervisors and injury
                              compensation staff did not always comply with Department
                              of Labor and Postal Service policies. The audit revealed the
                              Cleveland Performance Cluster’s process for monitoring
                              continuation of pay leave benefits for injured employees
                              needs improvement. Specifically, supervisors did not
                              always request authorization before continuation of pay
                              leave benefits were paid to employees and injury
                              compensation staff did not always properly monitor
                              continuation of pay leave usage. Consequently,
                              management controls over the processing and monitoring of
                              continuation of pay leave benefits were ineffective to
                              prevent 221 unnecessary leave and earnings pay
                              adjustments. The cost to process those pay adjustments
                              was estimated at $16,575. In addition, we identified
                              continuation of pay overpayments totaling about $5,505,
                              which represents funds that could have been put to better
                              use.

Summary of                    To correct the deficiencies associated with processing
Recommendations               continuation of pay leave benefits in the Cleveland
                              Performance Cluster, we recommend Postal Service
                              managers issue a cluster-wide policy requiring supervisors
                              to request authorization of continuation of pay leave benefits
                              before those leave benefits are paid to employees. In
                              addition, injury compensation personnel should be directed
                              to perform a weekly reconciliation of continuation of pay
                              time and attendance reporting. Furthermore, training should
                              be provided to injury compensation personnel to ensure the
                              accurate calculation of continuation of pay leave benefits.




                                                    i
                                         Restricted Information
Cleveland Performance Cluster’s Process for                                         HC-AR-01-001
 Administering Continuation of Pay Leave Benefits




Summary of                    Management agreed with our recommendations and stated
Management's                  that corrective actions will be initiated and implemented at
Comments                      the beginning of fiscal year 2002. Management also
                              requested, and the audit team will provide, audit working
                              paper information of specific injury claim numbers that
                              required pay adjustments or had overpayments. Postal
                              Service management in the Cleveland Performance Cluster
                              will reissue a district-wide policy requiring authorization from
                              injury compensation personnel before injury leave hours are
                              entered into the payroll system. Detailed instructions
                              regarding the proper completion and submission of
                              Form 3971, Request for Notification of Absence, for all
                              injured employees will be provided to each manager. Injury
                              compensation personnel will perform a reconciliation of
                              injury leave hours on a weekly basis. Refresher training will
                              be provided to injury compensation personnel on tracking
                              injury leave hours and reconciling the Workers'
                              Compensation-Injury on Duty report. Management’s
                              comments, in their entirety, are included in Appendix C.

Overall Evaluation of         Management's comments are responsive to our
Management's                  recommendations and we believe the actions taken or
Comments                      planned should correct the issues identified in this report.
                              Furthermore, the audit staff will provide management with
                              the requested information.




                                                    ii
                                         Restricted Information
Cleveland Performance Cluster’s Process for                                                         HC-AR-01-001
 Administering Continuation of Pay Leave Benefits


                                            INTRODUCTION
Background	                      The Department of Labor, Office of Workers’ Compensation
                                 Programs has sole responsibility for administering the
                                 Federal Employees' Compensation Act. The Code of
                                 Federal Regulations, Title 20, Employees’ Benefits, Part 10,
                                 April 1, 1999, establishes the rules for claiming benefits
                                 under the Federal Employees' Compensation Act.
                                 Specifically, Section 10.200 of the Code of Federal
                                 Regulations states, in part, that the employer must continue
                                 an employee’s regular pay for up to a maximum of
                                 45 calendar days of wage loss due to disability and/or
                                 medical treatment after a traumatic injury. This provision is
                                 called continuation of pay. Continuation of pay (injury
                                 leave) is considered regular income and unlike workers’
                                 compensation wage loss benefits, it is subject to income
                                 taxes and other payroll deductions applicable to regular
                                 income. The intent of the injury leave provision is to prevent
                                 interruption of the employee’s income during the period
                                 immediately after a job-related traumatic injury, while the
                                 Office of Workers’ Compensation Programs adjudicates1 the
                                 employee’s injury claim. After entitlement to the injury leave
                                 expires, the employee may apply for workers’ compensation
                                 wage loss benefits or use personal leave.

                                 The Postal Service is geographically segmented into
                                 11 decentralized areas.2 The Allegheny Area3 is 1 of the
                                 11 areas. During fiscal years (FY) 1998 and 1999, postal-
                                 wide payments for injury leave benefits averaged
                                 $22.5 million annually for approximately 23,000 employees.
                                 The Allegheny Area averaged $2 million4 in annual injury
                                 leave benefits for approximately 1,8002 employees over the
                                 same 2-year period.

                                 The Allegheny Area is geographically divided into ten
                                 performance clusters including the Cleveland Performance

1
 The process whereby Office of Workers Compensation Programs considers all information submitted by the
employee, employer, and from its own investigation to reach a decision regarding entitlement to Federal Employees’
Compensation Act benefits.
2
 As of September 8, 2001, the Postal Service was geographically reorganized into nine decentralized areas.
3
 Effective with the Postal Service reorganization on September 8, 2001, the Allegheny Area no longer exists and was
absorbed into a new geographical area, which is now the Eastern Area.
4
 The amounts previously reported in the Erie, Lancaster, and South Jersey Performance Clusters were changed due
to revised injury leave data for the Allegheny Area.




                                                        1
                                             Restricted Information
Cleveland Performance Cluster’s Process for                                                         HC-AR-01-001
 Administering Continuation of Pay Leave Benefits


                                 Cluster. Personnel in the Cleveland Performance Cluster’s
                                 Injury Compensation Control Office (Control Office) manage
                                 all injury claims for the entire performance cluster. In
                                 addition, Control Office Personnel are responsible for
                                 authorizing employee requests for injury leave.

Objective, Scope, and            Our audit objective was to determine whether the Cleveland
Methodology                      Performance Cluster's process for approving and tracking
                                 the use of injury leave benefits was in compliance with
                                 Department of Labor and Postal Service policies. In
                                 addition, we reviewed internal controls applicable to these
                                 benefits.

                                 To accomplish our objective, we reviewed Postal Service
                                 policies and procedures associated with injury leave
                                 benefits. We interviewed representatives from Postal
                                 Service Headquarters, the Health and Resource
                                 Management Office, and the Control Office. In addition, we
                                 contacted representatives from the Department of Labor,
                                 Office of Workers' Compensation Programs to discuss
                                 certain aspects of the injury leave guidance.

                                 This audit was limited to FY 2000 injury leave claims
                                 administered by the Cleveland Performance Cluster for pay
                                 periods 20 through 26 in calendar year 1999 and pay
                                 periods 1 through 7 in calendar year 2000. The Cleveland
                                 Performance Cluster was randomly selected as one of
                                 several performance clusters for an Allegheny Area
                                 projection. We identified 177 injury leave claims in the
                                 Cleveland Performance Cluster’s payroll sample frame for
                                 the audited period. We randomly selected 89 out of the
                                 177 injury leave claims for review. See Appendix A for an
                                 overview of our statistical sampling plan and methodology.

                                 The performance cluster sample size was calculated based
                                 on an area-wide design and projection. Therefore, the
                                 sample size in any one of the performance clusters is not
                                 designed to provide a specific performance cluster dollar
                                 estimate with tight enough precision to be useful to a
                                 performance cluster. Consequently, we will not project audit
                                 results by individual performance clusters; instead, at this
                                 time we will only report actual unprojected audit results.5


5
Appendix A contains an overview of our statistical sampling design methodology for the area-wide projection.



                                                        2
                                             Restricted Information
Cleveland Performance Cluster’s Process for                                       HC-AR-01-001
 Administering Continuation of Pay Leave Benefits


                              We relied extensively on computer-processed payroll data
                              contained in the Postal Service Payroll Paydata and
                              Employees Master Files. We also relied on prior audit work
                              performed by the Postal Service Office of Inspector General
                              (OIG) on the FY 1999 Postal Service financial statement
                              audit to assess the payroll function’s general and application
                              controls. In addition, we traced statistically selected data
                              from payroll pay data and employee master files to the
                              source documentation. Based on prior audit results and
                              alternative testing procedures performed during the audit,
                              we assessed the reliability of these data, including relevant
                              general and application controls, and found them adequate.
                              As a result of tests and assessments, we consider the
                              computer-processed data significantly reliable to satisfy the
                              audit objectives.

                              Our audit was conducted from July 2000 through
                              September 2001, in accordance with generally accepted
                              government auditing standards and included such tests of
                              internal controls as were considered necessary under the
                              circumstances. We discussed our findings and
                              recommendations with appropriate management officials
                              and included their comments, where appropriate.

Prior Audit Coverage	         South Jersey Performance Cluster’s Process for
                              Administering Continuation of Pay Leave Benefits (HC-AR-
                              00-001), dated September 28, 2000, concluded that the
                              process for monitoring injury leave benefits needed
                              improvement. Specifically, supervisors and injury
                              compensation control office staff did not always properly
                              process and monitor injury leave benefits. Postal Service
                              management concurred with the recommendations and
                              actions taken or planned should correct the issues identified
                              in our report.

                              Erie Performance Cluster’s Process for Administering
                              Continuation of Pay Leave Benefits (HC-AR-00-002), dated
                              September 28, 2000, concluded that the process for
                              monitoring injury leave benefits was generally sufficient.
                              Postal Service management concurred with the
                              recommendations and actions taken or planned should
                              correct the issues identified in our report.




                                                    3
                                         Restricted Information
Cleveland Performance Cluster’s Process for                                      HC-AR-01-001
 Administering Continuation of Pay Leave Benefits



                              Lancaster Performance Cluster’s Process for Administering
                              Continuation of Pay Leave Benefits (HC-AR-00-003), dated
                              September 28, 2000, concluded that the process for
                              monitoring injury leave benefits needed improvement.
                              Specifically, supervisors and injury compensation control
                              office staff did not always properly process and monitor
                              injury leave benefits. Postal Service management
                              concurred with the recommendations and actions taken or
                              planned should correct the issues identified in our report.

                              Consolidated Report on the Audit of Employing Agency
                              Workers’ Compensation Programs, (02-96-223-04-431),
                              dated February 16, 1996, issued by the President's Council
                              on Integrity and Efficiency, Audit Committee, was designed
                              to evaluate the effectiveness and efficiency of employing
                              agency workers' compensation programs. Of the
                              13 inspector general agencies included in the audit, the
                              Department of Transportation, Office of Inspector General
                              was the only agency that reported on injury leave benefits.
                              The Department of Transportation, Office of Inspector
                              General reported that 26 percent of the claims reviewed
                              received injury leave benefits although:

                                     •	 The Office of Workers’ Compensation Programs
                                        denied compensation claims.

                                     •	 The time for eligible use had expired.

                                     •	 No claim had been submitted to the Office of
                                        Workers’ Compensation Programs.

                              Overall, employing agency officials agreed that
                              improvements were needed in the workers' compensation
                              program.




                                                    4
                                         Restricted Information
Cleveland Performance Cluster’s Process for                                                          HC-AR-01-001
 Administering Continuation of Pay Leave Benefits


                                            AUDIT RESULTS
Administration of                The Cleveland Performance Cluster supervisors and
Injury Leave Benefits            Control Office staff did not always comply with Department
Not Always in                    of Labor and Postal Service policies. We found that 72 out
Compliance with                  of the 89 injury leave claims reviewed contained errors
Policies                         estimated to cost the Postal Service $16,575.6 These errors
                                 are depicted in the table below and in Appendix B. The
                                 incorrect processing of injury leave benefits occurred
                                 because supervisors did not always follow established
                                 procedures for authorizing and documenting such benefits.
                                 In addition, the Control Office staff did not effectively
                                 monitor injury leave usage. Consequently, internal controls
                                 over the processing of injury leave benefits were ineffective
                                 to prevent 221 unnecessary pay adjustments needed to
                                 correct employees’ applicable sick, annual, or other leave
                                 balances. Furthermore, we identified injury leave
                                 overpayments totaling approximately $5,505,7 which
                                 represents funds that could have been put to better use.

Injury Leave Claims                                     Injury Leave Claims
with Errors                                                 With Errors

                                           250
                                                                                           221
                                           200


                                           150


                                           100
                                                       72
                                                                                62
                                            50

                                                                   10
                                              0


                                                        Injury Leave Claims

                                                        Injury Leave Not Properly Authorized

                                                        Injury Leave Not Properly Monitored
                                                        Pay Adjus tments Identified


6
 The Postal Service estimates each pay adjustment costs $75 on average and in some extreme cases pay
adjustments could cost as much as $175 based on the time expended by responsible Postal Service employees. For
audit reporting purposes, we used the lower estimate of $75 per pay adjustment.
7
 Injury leave overpayments result when injury leave hours are paid in error and the employee does not have available
sick or annual leave to cover the absence mistakenly recorded. Injury leave overpayments also result when injury
leave hours are paid in error while the employee is simultaneously receiving wage compensation payments from the
Office of Workers’ Compensation Programs. Consequently, recovery procedures must be executed to collect
overpaid injury leave hours from the employee.



                                                         5
                                              Restricted Information
Cleveland Performance Cluster’s Process for                                                        HC-AR-01-001
 Administering Continuation of Pay Leave Benefits



Injury Leave Benefits            Supervisors did not always follow the process for authorizing
Approved Without                 injury leave benefits. Postal Service policy8 requires injury
Proper Authorization             leave should not be input until supervisors receive
                                 authorization from Control Office staff and injury leave must
                                 be requested via leave slips.9 However, supervisors did not
                                 receive proper authorization from Control Office staff before
                                 approving injury leave benefits for 10 out of the 72 injury leave
                                 claims we identified with injury leave errors. Furthermore,
                                 8 out of the 10 injury leave claims represented uninjured
                                 employees who received unauthorized injury leave benefits
                                 instead of the appropriate annual, sick, or other leave
                                 benefits. The supervisors’ failure to request and receive
                                 proper authorization from the Control Office staff before
                                 approving injury leave led to 45 unnecessary pay adjustments
                                 and overpayments totaling approximately $5,505.

                                 When uninjured employees receive unauthorized injury leave,
                                 the Postal Service is essentially allowing these employees an
                                 approved absence from work, unrelated to an on-the-job
                                 injury. Moreover, the uninjured employees’ applicable sick or
                                 annual leave balances are not reduced and remain
                                 overstated.

Requests for Injury              Proper timekeeping and accounting procedures are essential
Leave Benefits Not               for effective management and administration of the injury
Properly Documented              compensation program. Postal Service timekeeping and
                                 accounting guidelines require that a supervisor ensure a leave
                                 slip is completed promptly after being advised of an employee
                                 request for injury leave. When a traumatic injury occurs and
                                 employees are unable to complete a leave slip to request
                                 injury leave, supervisors are expected to perform this function.
                                 The senior installation official is required to retain leave slips
                                 for 2 years from the date the leave is taken or disapproved.
                                 Contrary to this guidance, supervisors did not always follow
                                 established procedures for documenting requests for injury
                                 leave. Our review disclosed that leave slips for 76 out of the
                                 89 injury leave claims were either improperly prepared or did
                                 not exist. We were unable to reconcile requested injury leave
                                 benefits with paid hours due to improperly completed or
                                 missing leave slips.

8
 Postal Service Handbook, EL-505, Injury Compensation, December 1995, Chapter 3, Section 3.11, "Completing and
Forwarding Claim Information," states supervisors should ensure that employees’ requests for injury leave benefits
are authorized by the Control Office staff.
9
 Employee requests for injury leave hours are reported on PS Form 3971, “Request for or Notification of Absence.”



                                                        6
                                             Restricted Information
Cleveland Performance Cluster’s Process for                                              HC-AR-01-001
 Administering Continuation of Pay Leave Benefits



                                     Although leave slips were improperly prepared or missing, we
                                     used other injury claim file documentation such as medical
                                     information, payroll journals, and clock rings and hours history
                                     reports to determine appropriate injury leave benefits.
                                     Employees must complete a leave slip to document requested
                                     injury leave benefits because such benefits are not
                                     automatically provided to injured employees. Therefore,
                                     improperly prepared or missing leave slips made it difficult to
                                     determine whether employees initially requested any injury
                                     leave benefits. Consequently, without an adequate audit trail,
                                     we were not reasonably assured that all injury leave hours
                                     recorded in the payroll system resulted from employee
                                     requests for injury leave benefits.

Injury Leave Usage                   Our review disclosed situations where Control Office staff did
Not Adequately                       not effectively monitor injury leave usage from the inception of
Monitored                            the injury leave claim through its injury leave eligibility
                                     timeframe. Postal Service Handbook, EL-505, Injury
                                     Compensation, Chapter 13, “Timekeeping and Accounting,”
                                     requires that Control Office staff monitor injury leave hours to
                                     ensure employees do not receive such benefits for more than
                                     a 45-calendar day period. We identified 54 properly
                                     authorized injury leave claims out of 72 claims with injury
                                     leave errors that the Control Office staff did not adequately
                                     monitor. In addition to the previously reported 45 pay
                                     adjustments resulting from supervisors’ improperly authorizing
                                     injury leave benefits, the Control Office staff’s failure to
                                     properly monitor injury leave usage resulted in 176 additional
                                     pay adjustments.

                                     We found the Control Office staff did not properly reconcile
                                     the “Workers’ Compensation-Injury on Duty” report10 with
                                     injury leave claims as required by Postal Service Handbook
                                     guidance. Chapter 13, Section 13.17, which addresses
                                     recovery of excessive injury leave hours, states the Control
                                     Office staff should use the “Workers’ Compensation–Injury on
                                     Duty,” report to review injury leave data. The report is used to
                                     reconcile injury leave benefits after those benefits have been
                                     reported and paid. Although the Control Office staff reviewed
                                     the report each accounting period, the Control Office staff did
                                     not always properly interpret the injury leave data in the
                                     report. Had the Control Office staff properly interpreted this


     This report is automatically generated each accounting period.
10




                                                            7
                                                 Restricted Information
Cleveland Performance Cluster’s Process for                                                          HC-AR-01-001
 Administering Continuation of Pay Leave Benefits


                                 report to reconcile injury leave hours; the 72 injury claims with
                                 injury leave errors would have been identified for correction
                                 prior to our audit. Because the existing report is a back-end
                                 monitoring control and the report is not designed to determine
                                 whether employees are entitled to injury leave benefits, we
                                 believe a front-end reconciliation control is needed to assist
                                 the Control Office staff in performing weekly monitoring of
                                 injury leave hours.

                                 While the Postal Service does not currently have a front-end
                                 reconciliation capability within the Postal Source Data System
                                 for monitoring injury leave hours,11 we noted the Postal
                                 Service is implementing a new time and attendance reporting
                                 system12 that will allow a front-end monitoring of injury leave
                                 and other hourly leave categories. The Cleveland
                                 Performance Cluster implemented the new timekeeping
                                 system in April 2001.13 In our opinion, the use of this front-
                                 end reconciliation capability, if implemented, could reasonably
                                 reduce the recording of inappropriate injury leave hours,
                                 thereby avoiding unnecessary payroll adjustments.

                                 Further, we determined Control Office staff did not properly
                                 annotate the case files to document authorized injury leave
                                 usage. Chapter 13 of the handbook states that a timekeeping
                                 worksheet14 should be used to assist the Control Office staff
                                 with tracking actual injury leave hours and days used by an
                                 employee. The Control Office staff improperly prepared
                                 timekeeping worksheets to monitor employee injury leave
                                 hours and days for 80 out of 89 injury claims. Had the Control
                                 Office staff properly prepared the timekeeping worksheets, the
                                 incorrect injury leave benefits paid for any one injury and the
                                 resulting unnecessary pay adjustments could have been
                                 avoided. Furthermore, proper use of the timekeeping
                                 worksheet provides internal staff and external reviewers the
                                 ability to obtain a timely, chronological listing of events that
                                 have occurred on each individual injury leave claim.



11
   The Postal Source Data System is used to report time and attendance for the majority of Postal Service employees

in the Cleveland Performance Cluster.

12
   The new time and attendance reporting system is entitled, “Time and Attendance Collection System.”

13
   Queries of the Time and Attendance Collection System should be performed weekly, no later than Friday of each
week. The review and validation of injury leave time reporting should be completed before the injury leave hours are
finalized in the payroll system.
14
   The timekeeping worksheet is specifically entitled, “COP/Leave Without Pay Injury on Duty Timekeeping
Worksheet.”



                                                         8
                                              Restricted Information
Cleveland Performance Cluster’s Process for                                                            HC-AR-01-001
 Administering Continuation of Pay Leave Benefits




Recommendation	                     We recommend the vice president, Eastern Area, direct the
                                    district and plant managers to:

                                    1.	 Issue a policy requiring every supervisor to request
                                        authorization from the Control Office staff before any
                                        injury leave hours are entered into the payroll system.
                                         •	 The policy should include instructions detailing
                                            supervisory responsibilities for ensuring the proper
                                            completion of leave requests.15

                                         •	 The policy should require the processing of all injury
                                            leave requests to the finance and timekeeping
                                            elements and retention of supporting documentation
                                            in employee injury claim files.

Management's                        Management agreed with the recommendation. A district-
Comments                            wide policy will be reissued requiring supervisors to request
                                    authorization from injury compensation personnel before
                                    any injury leave hours are input into the payroll system.
                                    Detailed instructions regarding the proper completion of
                                    Form 3971, “Request for Notification of Absence,” for all
                                    injured employees will be provided to each manager. In
                                    addition, Postal Service managers will be required to submit
                                    the completed leave requests to the appropriate finance
                                    department and send a copy to the Control Office for
                                    retention in the employee's injury claim file.

Recommendation                      2.	 Require the manager, Human Resources, to direct the
                                        Control Office staff to perform a front-end reconciliation
                                        of injury leave hours on a weekly basis. The weekly
                                        review will allow validation of injury leave hours before
                                        time accounting is finalized in the payroll system.

Management's                        Management agreed with our recommendation. Control
Comments                            Office personnel will be required to reconcile injury leave
                                    hours on a weekly basis. Since the Cleveland Performance
                                    Cluster is currently using the Time and Attendance Control
                                    System, the weekly reconciliation can be completed each
                                    Friday before any pay adjustments would be required.




15
     Employee requests for leave hours are reported on PS Form 3971, “Request for or Notification of Absence.”



                                                           9
                                                Restricted Information
Cleveland Performance Cluster’s Process for                                        HC-AR-01-001
 Administering Continuation of Pay Leave Benefits




Recommendation
               3.	 Require the manager, Human Resources, to provide
                                  refresher training in computing and tracking injury leave
                                  to Control Office personnel.

                                  •	 The training should provide detailed instructions on
                                     how to accurately interpret and reconcile the
                                     Workers’ Compensation-Injury on Duty report data to
                                     identify inappropriate injury leave benefits.

                                  •	 The training should provide detailed instructions on
                                     how to accurately compute the 45-day injury leave
                                     entitlement period.

Management's	                 Management agreed with the recommendation. Refresher
Comments	                     training will be provided to the Control Office personnel in
                              tracking injury leave hours and reconciling the Workers'
                              Compensation-Injury on Duty Report.

Evaluation of                 Management's comments are responsive to our
Management's                  recommendations and we believe the actions taken and
Comments                      planned should correct the issues identified in this report.




                                                   10
                                         Restricted Information
Cleveland Performance Cluster’s Process for                                    HC-AR-01-001
 Administering Continuation of Pay Leave Benefits


                                          APPENDIX A
           STATISTICAL SAMPLING METHODOLOGY OVERVIEW
This appendix summarizes the area-wide sample design and indicates where the
Cleveland Performance Cluster fits into that design. We designed a stratified sampling
procedure for the Allegheny Area, including the area Control Office and its
ten performance clusters. However, we determined the number of injury leave claims
identified for the Allegheny Area’s Control Office in FY 2000 was insignificant.
Therefore, we excluded the Allegheny Area’s Control Office from the sample selection
process used to determine potential audit locations. The first stratum consisted of the
two performance clusters with the smallest number of injury leave claims. We took a
census of these two clusters and reviewed all of their injury leave claims. The
second stratum consisted of the other eight performance clusters; we randomly selected
four out of the eight performance clusters for audit. Because of the larger number of
injury leave claims in the four selected performance clusters, we randomly selected
samples of employees who received injury leave benefits related to injury leave claims
from within those clusters. The Cleveland Performance Cluster was randomly selected
as one of the four second-stratum locations to be reviewed.

The sample size in any one of the performance clusters is not designed to provide a
specific performance cluster dollar estimate with tight enough precision to be useful to a
performance cluster. Consequently, we will not project audit results by individual
performance clusters; instead, at this time we will only report actual unprojected audit
results. After all statistically selected locations have been audited, we will perform a
weighted projection of the overall injury leave audit results. We will relate the area-wide
projection results in a consolidated report for the Allegheny Area.




                                                   11
                                         Restricted Information
     Cleveland Performance Cluster’s Process for                                              HC-AR-01-001
      Administering Continuation of Pay Leave Benefits


                 APPENDIX B. INJURY LEAVE CLAIMS WITH ERRORS

                                Cleveland Performance                                        Cleveland Performan
1       1     75.              Cluster Pay Adjustments                                       Cluster Pay Adjustme
2       2     00
                                                             Inju    Nu    Cost       Over
3       5     15                                              ry     mb     @         pay
4       2     0.0                                            Clai    er    $75        ment
                                                              ms     of    Per        Amo
5       2       0
6       1     37                                               3      2    150.
7       1     5.0       3                                      7      1       00
8       4       0     17,1.                                    3      4    1,05
9       4     15      409
                      6  ,2.                                   8      3    0.00
1       4     0.0     90090.                                   3      1    225.
0       1       0      00                                      9      1       00
1       2     15                                               4      3    75.0
1       6     0.0                                              0      3         0
1       2       0                                              4      8    75.0
2       1     75.                                              1      1         0
1       1     00                                               4      5    225.
3       1     75.                                              2      3       00
1       2     00                                               4      1    225.
4       4     30                                               3      5       00
1       2     0.0                                              4      1    600.
5       1       0                                              4      1       00
1       1     30                                               4      3    75.0
6       4     0.0                                              5      1         0
1       1       0                                              4      4    375.
7       2     30                                               6      4       00
1       4     0.0                                              4      2    225.
8       2       0                                              7      1       00
1       3     75.                                              4      2    75.0
9       4     00                                               8      3         0
2       2     15                                               4      2    375.
0       7     0.0                                              9      1       00
2       3       0                                              5      7    75.0
1       3     45                                               0      1         0
2       4     0.0                                              5      2    75.0
2       8       0                                              1      4         0
2       1     15                                               5      1    225.
3       1     0.0                                              2      2       00
2               0                                              5      2    75.0
4             75.                                              3      1         0
2             00                                               5      6    300.
5             75.                                             Totals 1
                                                               4              00
                                                                            $16,      $5,5
2             00                                               5      2    350705..   05.0
                                                                     221
6             75.                                              5              0000       0
2             00                                               5           150.
7
7
            155
                                             6              00
2             0.0                                              5           75.0
8               0                                              7                0
2             30                                               5           150.
9             0.0                                              8              00
3               0                                              5           225.
0             15                                        12
    9              00
              0.0                                              6
                                              Restricted Information       150.
3
3
              0                                              0              00
1             75.                                              6           75.0
3             00                                               1                0
2             75.                                              6           525.
Cleveland Performance Cluster’s Process for                       HC-AR-01-001
 Administering Continuation of Pay Leave Benefits


                   APPENDIX C. MANAGEMENT’S COMMENTS




                                                   13
                                         Restricted Information
Cleveland Performance Cluster’s Process for                       HC-AR-01-001
 Administering Continuation of Pay Leave Benefits




                                                   14

                                         Restricted Information
